             OFFICE OF INSPECTOR GENERAL

                                  EVALUATION REPORT

                    FISCAL YEAR 2011 EVALUATION OF

                        NEA’S COMPLIANCE WITH THE

                   FEDERAL INFORMATION SECURITY

                            MANAGEMENT ACT OF 2002

                                     REPORT NO. R-12-01


                                         November 15, 2011




                                    REPORT RELEASE RESTRICTION

In accordance with Public Law 110-409, The Inspector General Act of 2008, this report shall be posted on the National
Endowment for the Arts (NEA) website not later than three (3) days after it is made publicly available with the
approval of the NEA Office of Inspector General. Information contained in this report may be confidential. The
restrictions of 18 USC 1905 should be considered before this information is released to the public. Furthermore,
information contained in this report should not be used for purposes other than those intended without prior
consultation with the NEA Office of Inspector General regarding its applicability.
                               INTRODUCTION

The Federal Information Security Management Act of 2002 requires an annual evaluation
by the Inspector General on its agency’s information security programs and practices.
This report presents the results of our evaluation of NEA’s information security program
and practices for protecting its information technology (IT) infrastructure.


                                 BACKGROUND
The Federal Information Security Management Act (FISMA) of 2002 was signed into law
on December 17, 2002. It replaced the Government Information Security Reform Act
(GISRA), which expired in November 2002. The Act requires each federal agency to
develop, document, and implement an agency-wide information security program to
provide information security over the operations and assets of the agency. This includes:

   •   Periodic risk assessments;
   •   Policies and procedures that are based on risk assessments;
   •   Subordinate plans for providing adequate information security for networks,
       facilities, information systems, or groups of information systems, as appropriate;
   •   Security awareness training to inform employees (including contractors) of the
       security risks associated with their activities and their responsibilities to comply
       with those agency policies and procedures designed to reduce those risks;
   •   Periodic testing and evaluation of the effectiveness of information security
       policies;
   •   A process for planning, implementing, evaluating, and documenting remedial
       action to address any deficiencies in the information security policies, procedures,
       and practices, of the agency;
   •   Procedures for detecting, reporting, and responding to security incidents; and
   •   Plans and procedures to ensure continuity of operations of the agency’s
       information systems.

Office of Management and Budget (OMB) Memorandum M-11-33, dated September 14,
2011, entitled FY 2011 Reporting Instructions for the Federal Information Security
Management Act and Agency Privacy Management, updates instructions to Senior
Agency Officials for Privacy, Chief Information Officers and Inspectors General for
reporting their 2011 information to OMB.

The National Institute of Standards and Technology (NIST), which has the responsibility
for developing technical standards and related guidance, has issued numerous
publications including NIST Publication 800-12 An Introduction to Computer Security:
The NIST Handbook. This publication explains important concepts, cost considerations,
and interrelationships of security controls as well as the benefits of such controls. NIST
                                            2
also has published a Guide for Developing Security Plans for Information Technology
Systems; Special Publication 800-37, Guide for the Security Certification and
Accreditation of Federal Information Systems; Special Publication 800-53,
Recommended Security Controls for Federal Information Systems; and FIPS PUB 199,
Standards for Security Categorization of Federal Information and Information Systems.
In addition, guidance is found in the Government Accountability Office publication,
Federal Information System Controls Audit Manual (FISCAM).

NEA’s Office of Information and Technology Management (ITM) maintains and
operates two of the Agency’s three core systems on a local area network (LAN). These
are the Grants Management System (GMS), which contains information on grant
applications and the Automated Panel Bank System (APBS), which contains information
on panelists who review grant applications. NEA has contracted with the Department of
Transportation (DOT) Enterprise Service Center to host its Financial Management
System (FMS) through DOT’s Delphi Financial Management System and the U.S.
Department of Agriculture (USDA) National Finance Center for payroll services. NEA
has also contracted with other providers for email, grant application process and its
personal identity verification program (PIV). ITM operates support systems for internet
and intranet services.

The Chief Information Officer (CIO) is responsible for developing policies and
procedures to ensure that security is provided over NEA’s networks.


                         OBJECTIVE AND SCOPE
The objective of the evaluation was to determine the adequacy of NEA’s information
technology (IT) security program and practices. This included a review of NEA’s IT
security policies and procedures and privacy management program. It also included
interviews with responsible agency officials managing the IT systems, and tests on the
effectiveness of security controls.


         PRIOR EVALUATION AND OTHER REPORTS
The NEA Office of Inspector General (OIG) issued a report entitled Fiscal Year 2010
Evaluation of NEA’s Compliance with the Federal Information Security Act of 2002
(Report No. R-11-01) dated November 15, 2010. The report had seven (7)
recommendations, all of which NEA has implemented corrective actions.

We considered the results of our Review of NEA’s Control Over Computer-Related
Equipment, Report No. R-11-02, dated January 25, 2011. The review was to determine
whether NEA was processing and reporting computer security incidents in accordance with
its policies and federal guidance. The report contained eleven recommendations from the
OIG. As of August 24, 2011, NEA had implemented corrective actions for seven of the
eleven recommendations.


                                            3
We also considered the independent risk assessment report dated September 23, 2011.
NEA contracted with EmeSec Information Assurance to review and assess the security
architecture supporting NEA’s enterprise network to meet certification and accreditation.
The assessment included reviewing and examining documentation including policies,
procedures and plans for compliance with FISMA requirements, OMB policy and
applicable NIST guidelines. EmeSec also tested security controls by conducting specific
vulnerability assessment and penetration testing on the system network and applications
and NEA’s compliance with Federal Desktop Core Configuration (FDCC).

                         EVALUATION RESULTS
In June 2011, the Department of Homeland Security (DHS) issued a checklist for use by
Offices of Inspectors General to assess the level of performance achieved by agencies in
the specified program areas during the Fiscal Year 2011 FISMA evaluation period.

This report presents our completed DHS checklist for the NEA. We determined the level
of performance (a, b, or c) that the NEA had achieved for each of the program areas
listed. NEA program areas were designated as an “a” status where we determined that the
NEA met all the program attributes specified by the DHS. NEA program areas were
designated as a “b” status where we determined that one or more conditions listed by the
DHS needed significant improvement at the NEA. Due to time and resource constraints,
we were unable to test all conditions listed by the DHS in the “b” sections. Therefore, it
is possible that more of these conditions exist at the NEA than those we have checked.
NEA program areas were designated as a “c” status where we determined that NEA has
not yet established the program area.

The FY2011 FISMA evaluation concluded that NEA’s Office of Information and
Technology Management (ITM) have established a security program for protecting its
information technology (IT) infrastructure and is generally compliant with FISMA
legislation, however improvements are needed. The most recent risk assessment
identified several areas which need to be addressed by NEA to strengthen its security
program and increase its compliance with FISMA requirements, OMB policy and
applicable NIST guidelines. Some of the issues are related to improvements in policies
and procedures, documentation, system vulnerabilities and risk assessments performed by
ITM.

We determined that the following program areas met the level of performance specified
by DHS’s Fiscal Year 2011 FISMA checklist:

   1.   Risk Management
   2.   Configuration Management
   3.   Incident Response and Reporting
   4.   Security Training
   5.   Identity and Access Management
   6.   Continuous Monitoring Management
   7.   Contractor Systems
                                            4
We determined the following program areas were not fully effective as a result of the
conditions identified that need improvement.

       1. Remote Access Management
       2. Plan of Action & Milestones (POA&Ms)
       3. Contingency Planning

We determined that NEA does not have a program in place for the following:

       Security Capital Planning

Details of our evaluation are presented in the following narrative.

Risk Management
Overall, NEA has established and is maintaining a risk management program that is
consistent with FISMA requirements, OMB policy and applicable NIST guidelines.
However, some improvement opportunities have been identified. EmeSec Information
Assurance (EmeSec) performed the latest risk assessment; the results of which were
issued on September 23, 2011. The review concluded that while NEA has begun
implementing a consistently improving Security Program, “NEA would benefit from a
prioritized approach that addresses some of the most significant compliance requirements
as a means of reducing the compliance and potential security risk(s) faced by the NEA
Chairman, the CIO and the NEA-IG.” The assessment identified the following
weaknesses:

   1. Establish system ownership and security management that is consistent with NIST
       requirements.
   2. Formally categorize the General Support System (GSS).
   3. Move the apps.NEA.gov server into a demilitarized zone (DMZ).
   4. Fully implement FDCC.
   5. Modify web application code to sanitize all user input.
   6. Apply all security patches.
   7. Update policies and/or develop separate procedure(s) in support of each policy
       and specifics related to activities, task, and performances.
   8. Update the System Security Plan (SSP) and the Certification & Accreditation
       (C&A) package in the proper format.
   9. Document the risks related to NEA Network System including showing those
       risks that can be mitigated and those that cannot be mitigated.
   10. Remove security policy and procedure development from the legal approval
       process.
   11. Conduct regular security assessments.
   12. Some technical enhancements
       • use stronger passwords for all account
       • enable Administrator accounts on network printers
                                             5
       •   disable unnecessary ports and services
       •   apply patches and hot-fixes on all servers and workstations
       •   create unique administrator accounts for each administrator
       •   upgrade unsupported operating systems.

The system vulnerability assessment identified 20 internal system vulnerabilities which
were categorized as critical and 363 vulnerabilities, both internal and external were
categorized as high risk. The report also identified several medium to low risk
vulnerabilities.

Subsequent to our evaluation, ITM included the weaknesses and vulnerabilities identified
by the risk assessment in its Plan of Actions and Milestones (POA&Ms). In addition,
ITM recently implemented Nessus, a continuous monitoring tool which identifies network
vulnerabilities.

We recommend that NEA implement corrective actions for recommendations in the Risk
Assessment Report issued September 23, 2011 by EmeSec. The corrective actions
should address all of the recommended policy, administrative and technical
improvements including vulnerabilities identified. NEA should also use a prioritized
approach based on the categorization of risk to implement corrective actions for system
vulnerabilities.

Configuration Management
NIST 800.53 (Rev.3) defines the configuration management plan as detailed processes
and procedures for how configuration management is used to support system
development life cycle activities at the information system level. The plan describes how
to move a change through the change management process, how configuration settings
and configuration baselines are updated, how the information system component
inventory is maintained, how development, test, and operational environments are
controlled, and finally, how documents are developed, released, and updated. The plan
should also define roles and responsibilities.

During our review of NEA’s configuration management program, we determined that
NEA has established and is maintaining a security configuration management program.
However, several areas of improvement were identified during the independent risk
assessment and the FISMA evaluation. The assessment concluded that “NEA had no
detailed configuration management policy; no configuration control board” and was not
“fully FDCC compliant.”

Our review of NEA’s Change Management Program determined that in some cases, the
requestor, reviewer and approver for changes to the system or software were the same
person. The independent risk assessment also indentified the same segregation of duties
issue.


                                            6
We recommend that NEA revise its change management policy to provide for adequate
segregation of duties. The policy should ensure that the request, review and approval for
potential and/or actual changes to hardware or software are not performed and approved
by the same staff person.

Incident Response and Reporting
During the FY 2010 FISMA evaluation, we identified several areas in need of
improvement in NEA’s Computer Security Incident Reporting Program. We issued a
report, NEA’s Control Over Computer-Related Equipment (Report No. R-11-02) which
contained eleven recommendations. The report also included seven recommendations by
the NEA Information System Security Officer (ISSO) to the CIO to address weaknesses
found in its program.

Appendix III to OMB Circular A-130 states:

       When faced with a security incident, an agency should be able to respond in a manner that
       both protects its own information and helps to protect the information of others who might be
       affected by the incident. To address this concern, agencies should establish formal incident
       response mechanisms.

As of August 24, 2010, NEA had implemented corrective actions for seven of the
eleven OIG recommendations and for five of the seven ISSO recommendations.
Subsequent to our evaluation, ITM informed us that corrective actions for three of
the remaining OIG recommendations have been implemented and awaiting
management concurrence.

Although there are areas in need of improvement, NEA has established and is
maintaining an incident response and reporting program that is consistent with
FISMA requirements, OMB policy and applicable NIST guidelines.

We recommend that NEA implement corrective actions for the remaining six
recommendations in Report No. R-11-02, NEA’s Control over Computer-Related
Equipment.

Security Training
NIST Special Publications 800-50, Building an Information Technology Security
Awareness and Training Program and 800-16, Information Technology Security Training
Requirements: A Role- and Performance-Based Model provide the standards for security
awareness and training. NEA administered it FY 2011 Annual Refresher Training
August 10, 2011.

We obtained and reviewed the FY 2011 IT Security and Privacy Awareness Refresher
training materials and notification sent to employees by email. We determined that the
date of completion requirement, which was recommended by the OIG in the FY 2010
FISMA evaluation, was included. However, we noted that while the training included

                                                    7
reporting computer-related equipment theft, it did not include computer security incident
and reporting as recommended and agreed to by ITM.

Appendix III to OMB Circular A-130 states, in part:

       Awareness and training for individuals with access to the system should include how to use
       the system’s incident response capability.

We also obtained and reviewed the list of employees who had completed the FY 2011
security awareness training and determined that 99% of the staff completed the training
(165 completed, 1 did not complete).

Although NEA has established and is maintaining a security training program we
recommend that ITM includes computer security incident and reporting in its annual
security awareness training in accordance with OMB Circular A-130.

Plans of Action and Milestones (POA&Ms)
OMB’s instructions direct Inspectors General to review the status of the agency’s
POA&Ms program. The program should be consistent with FISMA requirements, OMB
policy and applicable NIST guidelines and include written policies for managing security
weaknesses. OMB Memorandum M-02-01 describes a POA&M as a corrective action
plan, a tool that identifies tasks that need to be accomplished. It details resources
required to accomplish the elements of the plan, any milestones in meeting the task and
scheduled completion dates for the milestones. The purpose is to assist agencies in
identifying, assessing, prioritizing and monitoring the progress of corrective efforts for
security weaknesses found in programs and systems. The program should also include
reports to the CIO, on a regular basis, at least quarterly, on the progress of remediation.

The independent risk assessment concluded that although NEA has an established
POA&M program, it is not being implemented consistently. The assessment stated that
the POA&Ms reviewed were “from the previous Office of Inspector General audit and
not accurate.”

During our FY 2010 FISMA evaluation, we recommended areas of improvement for the
POA&Ms program. We recommended that ITM develop and implement written policies
and procedures for its POA&Ms program consistent with FISMA requirements, OMB
policy and applicable NIST guidelines. We also recommended that the policy include
procedures for regular reporting on the progress of remediation to the CIO, at least
quarterly. ITM developed the policy; however, it has not been consistently implemented.
As a repeated finding (FY 2008-2010 FISMA Evaluations), we believe NEA needs to
make significant improvements in its tracking and monitoring of information security
weaknesses.

We recommend that ITM implement procedures for its POA&Ms program in accordance
with FISMA requirements, OMB policy and applicable NIST guidelines to accurately

                                                    8
track and monitor information security weaknesses consistently. ITM should also
document notification to the CIO, at least quarterly, of remediation progress.

Remote Access Management and
 Identity and Access Management
NEA has established and is maintaining a program for remote access and identity and
access management. NEA has developed policies and procedures for its remote access
and identity and access management programs. However, those policies are not
consistently implemented and several areas of improvement were identified during our
review.

The FY 2011 Risk Assessment recommended that the policies for Remote Access and
Access Control be incorporated to reduce the likelihood of inconsistent guidance and/or
requirements. The review also recommended that the policies should define roles and
responsibilities and ensure that defined technical requirements are FDCC compliant.

During our review of the Remote Access Policy, we found that there was no requirement
for employees to complete authorization forms. We also found that the authorization
forms were not available on the NEA Intranet Forms webpage and not all employees with
remote access had completed and submitted forms to ITM. In addition, we requested the
names of employees who have remote access and authorizations on file. We determined
from the information provided by ITM that of the 88 employees had remote access 39
had authorizations file.

We also found that NEA-owned cell phones (Blackberry) are maintained and issued
through the NEA’s Office of Administration. Therefore, ITM does not issue or maintain
authorization for remote access using these devices. The Blackberry is considered a
consumer device which has web-based remote access. NIST SP-800-46, Section 4.2
states, in part:

       Given the similarity between the functions of consumer devices, particularly as they become more
       advanced, and PCs, organizations should strongly consider treating them similar to, or the same as,
       PCs. This means that organizational policies for PCs may simply be extended to consumer devices; if
       the two policies are kept separate, the policy documents should heavily cross-reference each other.



We believe NEA needs to make significant improvements to its Remote Access Program.
We recommend that NEA implement corrective actions to address the following:

    • Recommendations of the FY 2011 Risk Assessment.
    • Revise its policy for Remote Access to include the requirement and procedures to
      complete and submit authorization forms to ITM. Policies and procedures should
      ensure that employees complete the process before remote access is granted.
    • Authorization forms should be made available to employees on the NEA Intranet
      Forms webpage.

                                                    9
    • Revise its Remote Access policy to include any consumer devices, such as phones
      which provide remote access and ensure authorizations are maintained by ITM.

Continuous Monitoring Management
OMB’s FY 2011 instructions states continuous monitoring programs and strategies
should address: (i) the effectiveness of deployed security controls; (ii) changes to
information systems and the environments in which those systems operate; and (iii)
compliance to federal legislation, directives, policies, standards and guidance with regard
to information security and risk management. Continuous monitoring of security controls
is required as part of the security authorization process to ensure controls remain
effective over time in the face of changing threats, missions, environments of operation,
and technologies. A robust and effective continuous monitoring program will ensure
important procedures included in an agency’s security authorization package (e.g., as
described in system security plans, security assessment reports, and POA&Ms) are
updated as appropriate and contain the necessary information for authorizing officials to
make credible risk-based decisions regarding the security state of the information system
on an ongoing basis.

The FY 2011 risk assessment recommended that the policy for Continuous Monitoring
could be strengthened by defining roles and responsibilities and defining specific
timeframes/frequencies of tasks (i.e., daily, weekly monthly, quarter and/or at least
annually).

We determined that NEA has established and implemented a continuous monitoring
program which assesses the security state of information systems that is consistent with
FISMA requirements, OMB policy and applicable NIST guidelines. However, we
recommend that NEA revise its Continuous Monitoring Policies to include the
recommendations of the risk assessment.

Contingency Planning
NEA has established and is maintaining an enterprise-wide business continuity/disaster
recovery program that is consistent with the FISMA requirements, OMB policy and
applicable NIST guidelines. However, the FY 2011 independent risk assessment
recommended that NEA develop a comprehensive Information System Contingency Plan
(ISCP) based on NIST SP 800-34, Revision 1.

According to NIST SP 800-34, Revision 1, the contingency plan is different from the
Continuity of Operations Plan (COOP) and should define roles and responsibilities,
define specific recovery time objectives, training, test planning and documenting testing
results. It further states that once the disaster recovery plan has successfully transferred
an information system site to an alternate site, each affected system would then use its
respective ISCP to restore, recover, test systems, and put them into operation.


                                             10
We recommend that NEA develop and implement written policies and procedures to
ensure that it establishes an Information System Contingency Plan in compliance with
NIST SP 800-34 Revision1.

Contractor Systems
OMB’s FY 2011 FISMA instructions, states that “each agency must ensure their
contractors are abiding by FISMA requirements. Section 3544(a)(1)(A)(ii) describes
Federal agency security responsibilities as including information systems used or
operated by an agency or by a contractor of an agency or other organization on behalf of
an agency.” Therefore, Federal security requirements continue to apply and the agency is
responsible for ensuring appropriate security controls (see OMB Circular A-130,
Appendix III). Agencies must develop policies for information security oversight of
contractors and other users with privileged access to Federal data. Agencies must also
review the security of other users with privileged access to Federal data and systems.”

We obtained and reviewed agreements, including Interconnection Security Agreements
and Memoranda of Understanding (MOU) with NEA’s service providers. We found that
there were agreements in place for all interconnected providers, except the service
provider Xecu.net which houses NEA’s backup systems.

We determined that overall NEA has established and maintains a program to oversee
systems operated on its behalf by contractors or other entities. However, we recommend
that NEA immediately execute an MOU and/or interconnectivity agreement with
Xecu.net, as required by FISMA requirements, OMB policy and applicable NIST
guidelines.

                            Financial Management System

NEA has an agreement with the U.S. Department of Transportation (DOT) to utilize the
Enterprise Service Center’s (ESC) Oracle Federal Financial System, Delphi, as their
financial management system.

OMB requires that such service organizations provide client agencies with an
independent report describing system controls. To comply with this requirement, DOT
OIG hired an independent contractor, Clifton Gunderson, LLP, to conduct a review on
the computer controls over the information technology and data processing environment,
as well as the input process, and output controls built into the Delphi system, which is
used by multiple Federal agencies.

The audit concluded that management’s description fairly presents, in all material
respects, the ESC’s system was “designed and implemented throughout the period
October 1, 2010 to June 30, 2011.” In addition, the report, dated August 1, 2011, stated
that “controls are suitably designed to provide reasonable assurance that the control
objectives would be achieved if the controls operated effectively throughout the period.”


                                           11
                                               Payroll System

NEA uses the U.S. Department of Agriculture (USDA) National Finance Center (NFC)
as its payroll provider. In September 2011, the USDA OIG issued its Statement on
Standards for Attestation Engagements No. 16 Report on Controls at the National
Finance Center. 1 The review concluded that the NFC’s “description fairly presents NFC
payroll/personnel processing and application hosting systems that were designed and
implemented throughout the period from October 1, 2010, to July 31, 2011.” Also, in
their opinion, “the controls included in the description were suitably designed and
operating effectively to provide reasonable assurance that the associated control
objectives would be achieved.” There were no recommendations in the report.

Security Capital Planning

Capital Planning and Investment Control Process, as defined in OMB Circular A-139,
(6)(c))” is a management process for ongoing identification, selection, control, and
evaluation of investments in information resources. The process links budget formulation
and execution, and is focused on agency missions and achieving specific program
outcomes.” The FY 2011 FISMA instruction lists the following attributes for an
established program that is established and maintained:

    •    Documented policies and procedures to address information security in the capital
         planning and investment control process.
    •    Includes information security requirements as part of the capital planning and
         investment process
    •    Establishes a discrete line item for information security in organizational
         programming and documentation
    •    Employs a business case/Exhibit 300/Exhibit 53 to record information security
         resources required
    •    Ensures information security resources are available for expenditure as planned

NEA does not have a capital planning and investment control process program.

We recommend NEA establish and maintain a security capital planning and investment
control process program for information security. The program should include written
policies and procedures to ensure that the program is in compliance with FISMA
requirements, OMB policy and applicable NIST guidelines.

Privacy Reporting and Privacy Impact Assessment

The FY 2011 FISMA guidance included additional questions on security and privacy
policies, which requires agencies to submit information on privacy issue allegations,
policies and the types of privacy reviews ITM conducted.

1
 The Statement on Standards for Attestation Engagements (SSAE) 16 reports replaced the SAS 70 reports for periods
ending on or after June 15, 2011.
                                                       12
ITM’s review of personally identifiable information (PII) holdings determined that (1)
NEA collects only PII that is relevant and necessary for administrative purposes and (2)
there are adequate administrative, technical and physical safeguards in place for the PII
collected. NEA does not use Social Security Numbers (SSNs), truncated SSNs, or any
part of SSNs as tracking numbers for its applications, grants, cooperative agreements or
contracts. NEA does not share PII with outside agencies other than for processing
payments. ITM indicated there have been no reported breaches or security incidents
involving PII collected or maintained by the Agency. Therefore NEA is not required to
conduct privacy information assessments (PIA).

FY 2011 OMB guidance states that “although neither Section 208 of the E-Government
Act, nor OMB's implementing guidance mandate agencies conduct PIAs on electronic
systems containing information about Federal employees (including contractors), OMB
encourages agencies to scrutinize their internal business processes and the handling of
identifiable information about employees to the same extent they scrutinize processes and
information handling procedures involving information collected from or about members
of the public (OMB Memorandum 03-22, Section II.B.3.a).”

EmeSec reviewed the NEA PIA policy and offered the following assessment:

•   The document does not trace via flow the transport of PII data through the NEA
    General Support System.

•   It does have the portion regarding what is submitted may be collected but it shows no
    discussion on whether the stored PII is encrypted, once collected.

We recommend that NEA revises its PIA policy to address the above assessment and
ensure compliance with FISMA requirements, OMB policy and applicable NIST
guidelines.
.
                             EXIT CONFERENCE
We provided a draft copy of this report to ITM officials on November 14, 2011. The
officials generally concurred with our findings and recommendations and agreed to
initiate corrective actions.
                           RECOMMENDATIONS
We recommend that the National Endowment for the Arts, Office of Information and
Technology Management:

    1. Implement corrective actions for recommendations in the Risk Assessment Report
       issued September 23, 2011 by EmeSec. The corrective actions should address all
       of the recommended policy, administrative and technical improvements including
       vulnerabilities identified. NEA should also use a prioritized approach based on

                                            13
   the categorization of risk to implement corrective actions for system
   vulnerabilities.

2. Revise its change management policy to provide for adequate segregation of
   duties. The policy should ensure that the request, review and approval for
   potential and/or actual changes to hardware or software are not performed and
   signed off by the same staff person.
3. Implement corrective actions for the remaining six recommendations in
   Report No. R-11-02, NEA’s Control over Computer-Related Equipment.

4. Include computer incident and reporting in its annual security awareness training.

5. Implement procedures for its POA&Ms program in accordance with NIST, OMB
   and FISMA requirements to accurately track and monitor information security
   weaknesses consistently.

6. Document notification to the CIO, at least quarterly, of remediation progress of its
   POA&M program.

7. Implement corrective actions to address the following recommendations for its
   Remote Access program:

   •   Recommendations of the FY 2011 Risk Assessment.
   •   Revise its policy for Remote Access to include the requirement and
       procedures to complete and submit authorization forms to ITM. Policies and
       procedures should ensure that employees complete the process before remote
       access is granted.
   •   Authorization forms should be made available to employees on the NEA
       Intranet Forms webpage.
   •   Revise its Remote Access policy to include any consumer devices, such as
       phones which provide remote access and ensure authorizations are maintained
       by ITM.

8. Develop and implement written policies and procedures to ensure that it
   establishes an Information System Contingency Plan in compliance with NIST SP
   800-34, Revision1.

9. Execute an MOU and/or interconnectivity agreement with Xecu.net, as required
   by FISMA requirements, OMB policy and applicable NIST guidelines.

10. Establish and maintain a security capital planning and investment control process
    program for information security. The program should include written policies
    and procedures to ensure that the program is in compliance with OMB, FISMA
    and NIST guidelines.


                                        14
11. Revise its PIA policy to address EmeSec’s assessment and ensure compliance
    with FISMA requirements, OMB policy and applicable NIST guidelines.




                                      15
